Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


      NOT ALL OF THE
  YOUNG WOMEN’S CHRISTIAN
      ASSOCIATION OF
   METROPOLITAN ST. LOUIS
  HEAD START EXPENDITURES
     WERE ALLOWABLE


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                      Kay L. Daly
                                               Assistant Inspector General

                                                        April 2013
                                                      A-07-11-02762
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major objectives of the Head Start program are to promote
school readiness and enhance the social and cognitive development of low-income children by
providing educational, health, nutritional, and social services. In 1994, the Head Start program
was expanded to establish Early Head Start, which serves children from birth to 3 years of age.
We refer collectively to both programs as the Head Start program.

Within the U.S. Department of Health and Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2010, Congress appropriated $7.2 billion to fund the Head Start program’s regular
operations. ACF uses the Payment Management System (PMS) to manage grant payment
requests, funds drawdowns, and disbursement reporting activities.

The Young Women’s Christian Association of Metropolitan St. Louis (YWCA), headquartered
in St. Louis, Missouri, is a nonprofit organization that operates federally funded Head Start
programs to more than 2,600 preschool-age children through a network of Head Start centers,
Child Care Partner sites, and subcontracts with the Urban League of Metropolitan St. Louis
(delegate agency). For grant years (GY) 2007 through 2009, OHS awarded YWCA $63,411,820
in Federal funds.

OBJECTIVES

Our objectives were to determine whether YWCA (1) properly accounted for grant funds in
accordance with Federal regulations and the terms of the grant, (2) properly safeguarded its grant
funds, and (3) had a process to monitor its subcontracts with the delegate agency.

SUMMARY OF FINDINGS

YWCA did not always properly account for grant funds in accordance with Federal regulations
and the terms of the grant. In addition, YWCA did not always safeguard its grant funds. YWCA
had a process to monitor its subcontracts with the delegate agency.

With respect to its accounting for Head Start grant funds, YWCA:

   •   improperly used part of its GY 2009 grant award to pay for GY 2008 overspending,

   •   improperly used interfund transfers to temporarily pay for United States Department of
       Agriculture (USDA) and State of Missouri program expenditures and improperly
       allocated Federal Head Start grant funds to fund the non-Federal share of salaries at one
       of its Head Start centers, and




                                                i
   •    applied in-kind costs that were not always allowable and were inadequately documented
        to meet its non-Federal matching share of Head Start program costs.

In addition, YWCA did not always safeguard its Head Start grant funds because it maintained
those funds in bank accounts with balances that exceeded the Federal Deposit Insurance
Corporation (FDIC)-insured limits.

As a result of these weaknesses, YWCA claimed $337,194 in unallowable expenditures,
improperly drew down funds from the PMS that created increased borrowing costs to the Federal
Government, increased the risk of loss of grant funds in the event of a bank failure, and may not
have met its required 20 percent non-Federal matching share requirement.

YWCA’s policies and procedures were not adequate to ensure that the costs it incurred were
allowable.

YWCA had a process to monitor Head Start subcontracts with the delegate agency. Specifically,
YWCA hired an independent contractor to collect data to determine whether the delegate
agency’s systems and services were implemented and working effectively. The independent
contractor provided YWCA with monitoring reports on an annual basis.

RECOMMENDATIONS

We recommend that when monitoring the Head Start funds, OHS consider the information
presented in this report in assessing YWCA’s ability to account for and manage Federal funds
and to operate its programs and Head Start centers in accordance with Federal regulations and
the terms of the grant. Specifically, we recommend that OHS:

    •   recover the improperly spent grant funds from the GY 2009 award totaling $337,194;

    •   ensure that YWCA improves its policies and procedures for tracking unobligated
        balances so that those balances are properly accounted for;

    •   improve policies and procedures to ensure that the PMS recaptures unobligated balances
        from YWCA and other grantees in a timely manner;

    •   ensure that YWCA improves its policies and procedures so that its drawdowns of Head
        Start grant funds are timed and limited to actual program costs for the execution of
        approved program activities;

    •   review and, as necessary, modify policy guidance regarding interfund transfers to ensure
        that it conforms to Federal regulations;

    •   ensure that YWCA strengthens and, where necessary, implements policies and
        procedures to ensure that in-kind donations are allowable and are recognized in the
        appropriate accounting period, and that YWCA maintains adequate supporting



                                               ii
        documentation that identifies the contents and the basis for valuation of in-kind
        donations; and

    •   ensure that YWCA improves its policies and procedures so that its account cash
        balances of Head Start grant funds do not exceed the FDIC-insured limits.

YOUNG WOMEN’S CHRISTIAN ASSOCIATION
OF METROPOLITAN ST. LOUIS COMMENTS

In written comments on our draft report, YWCA provided background information for each of
our findings and described corrective actions that it had taken or planned to take. However,
YWCA questioned our finding on the use of interfund transfers to temporarily pay for USDA
program expenditures that should have been covered by USDA program grant funds. YWCA
stated that Federal regulations allow the cost of nutritional services not covered by other forms of
payment.

YWCA’s comments also addressed the finding in our draft report that it had underspent its GY
2009 grant award.

YWCA’s comments are included in their entirety as Appendix A.

OFFICE OF INSPECTOR GENERAL RESPONSE TO YOUNG WOMEN’S
CHRISTIAN ASSOCIATION OF METROPOLITAN ST. LOUIS COMMENTS

YWCA did not provide support, either during our fieldwork or in its comments, that it used Head
Start grant funds for only those allowable costs not covered by USDA program grant funds. We
therefore continue to recommend that OHS review and, as necessary, modify policy guidance
regarding interfund transfers to ensure that it conforms to Federal regulations.

Our draft report included a finding that YWCA had underspent its GY 2009 grant award. After
receiving additional information from OHS after issuance of our draft report, we removed this
finding from, and modified the associated recommendation in, this final report.

We maintain that all of our remaining findings and recommendations are valid.

OFFICE OF HEAD START COMMENTS

In written comments on our draft report, OHS generally agreed with our findings and
recommendations. Our draft report contained a finding and associated recommendation about a
drawdown of unobligated balances from GYs prior to GY 2009. OHS did not agree with this
finding and provided additional information to us, including verification that the PMS recaptured
prior GY unobligated balances. OHS also stated that YWCA drew down its entire GY 2009
grant award and improperly used part of it to improperly pay for overspending that occurred in
GY 2008.




                                                iii
OFFICE OF INSPECTOR GENERAL RESPONSE TO
OFFICE OF HEAD START COMMENTS

After reviewing the information that OHS provided to us and discussing this information with
YWCA officials, we revised our final report to reflect the information that OHS provided to us.
We maintain that our remaining findings and recommendations are valid.




                                               iv
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
              Head Start Program ........................................................................................1
              Payment Management System .......................................................................1
              Young Women’s Christian Association of Metropolitan St. Louis ...............1
              Federal Regulations for Head Start Grantees.................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY ...................................................2
               Objectives ......................................................................................................2
               Scope .............................................................................................................2
               Methodology ..................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

          GRANT FUNDS NOT PROPERLY SPENT ............................................................5
              Improper Use of Current Grant Year Funds to Pay for Prior Grant Year
              Overspending .................................................................................................5
              Interfund Transfers and Grant Fund Allocations ...........................................7
              In-Kind Match ................................................................................................10

          GRANT FUNDS NOT ALWAYS SAFEGUARDED ..............................................12
              Federal Requirements Concerning Federal Deposit
                 Insurance Corporation Limits ...................................................................12
              Bank Account Balances in Excess of Federal Deposit
                 Insurance Corporation Limits ..................................................................13

          GRANTEE MONITORING OF DELEGATE AGENCY SUBCONTRACTS ........13

          RECOMMENDATIONS ..........................................................................................13

          YOUNG WOMEN’S CHRISTIAN ASSOCIATION
              OF METROPOLITAN ST. LOUIS COMMENTS .......................................14

          OFFICE OF INSPECTOR GENERAL RESPONSE TO YOUNG
               WOMEN’S CHRISTIAN ASSOCIATION OF
               METROPOLITAN ST. LOUIS COMMENTS .............................................14

          OFFICE OF HEAD START COMMENTS ..............................................................15

          OFFICE OF INSPECTOR GENERAL RESPONSE TO
               OFFICE OF HEAD START COMMENTS ..................................................15



                                                                    v
APPENDIXES

    A: YOUNG WOMEN’S CHRISTIAN ASSOCIATION
       OF METROPOLITAN ST. LOUIS COMMENTS

    B: OFFICE OF HEAD START COMMENTS




                               vi
                                             INTRODUCTION

BACKGROUND

Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major objectives of the Head Start program are to promote
school readiness and enhance the social and cognitive development of low-income children by
providing educational, health, nutritional, and social services. In 1994, the Head Start program
was expanded to establish Early Head Start, which serves children from birth to 3 years of age.
We refer collectively to both programs as the Head Start program.

Within the U.S. Department of Health and Human Services (HHS), the Administration for
Children and Families (ACF), Office of Head Start (OHS), administers the Head Start program.
In fiscal year (FY) 2010, Congress appropriated $7.2 billion to fund the Head Start program’s
regular operations.

Payment Management System

ACF uses the Payment Management System (PMS), a centralized grants payment and cash
management system that provides awarding agencies and grant recipients tools to manage grant
payment requests, funds drawdowns, and disbursement reporting activities. Federal agencies can
use the PMS to pay grant recipients and obtain their Federal Financial Reports. The HHS
Program Support Center, Division of Payment Management, administers the PMS and assists
grant recipients on behalf of the grantor agencies in establishing and maintaining their PMS
accounts, obtaining grant funds, and complying with Federal Financial Report requirements.
The Division of Payment Management provides these services for HHS and several other
Federal agencies outside of HHS, such as the Departments of Labor, Agriculture (USDA), and
Interior.

Young Women’s Christian Association of Metropolitan St. Louis

The Young Women’s Christian Association of Metropolitan St. Louis (YWCA), headquartered
in St. Louis, Missouri, is a nonprofit organization that operates federally funded Head Start
programs. For grant years (GY) 2007 through 2009, OHS awarded YWCA $63,411,820 in
Federal funds.

YWCA provides services to more than 2,600 preschool-age children through a network of Head
Start centers, Child Care Partner sites, 1 and subcontracts with the Urban League of Metropolitan
St. Louis (delegate agency). YWCA allocated approximately $16 million to the delegate agency
to operate some of its Head Start centers.

1
 These are privately owned childcare facilities with which YWCA contracts to provide services for qualified Head
Start families.



                                                        1
As the recipient of Federal grant funds, YWCA is accountable for the performance of the
program and the expenditure of funds under the award by all parties. Thus, the delegate agency
was subject to monitoring by YWCA under the provisions of Federal grant administration
regulations and YWCA’s Fiscal Policies and Procedures Manual.

Federal Regulations for Head Start Grantees

Federal regulations (45 CFR § 1301.10(a)) state that nonprofit Head Start and Early Head Start
grantees are subject to the applicable uniform grant administrative requirements under 45 CFR
part 74. Pursuant to 45 CFR § 74.27(a), the allowability of costs is to be determined in
accordance with the Federal cost principles applicable to the entity incurring the costs. For
nonprofit organizations, the provisions of 2 CFR part 230, Cost Principles for Non-Profit
Organizations (Office of Management and Budget (OMB) Circular A-122), are applicable.
These cost principles specify the criteria that costs must meet to be allowable.

Grantees must maintain financial management systems in accordance with 45 CFR § 74.21.
Pursuant to 45 CFR § 74.21(b)(6), grantees must maintain financial management systems that
contain written procedures for determining the allowability of costs in accordance with
applicable Federal cost principles and the terms and conditions of the award. Grantees also must
maintain accounting records that are supported by source documentation (45 CFR § 74.21(b)(7))
and financial systems that provide for accurate and complete reporting of grant-related financial
data (45 CFR § 74.21(b)(1)). Grantees must have effective controls and safeguards in place to
ensure accountability over funds, property, and other assets (45 CFR § 74.21(b)(3)) and to
maintain records that sufficiently identify the source and application of funds for HHS awards
(45 CFR § 74.21(b)(2)).

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether YWCA (1) properly accounted for grant funds in
accordance with Federal regulations and the terms of the grant, (2) properly safeguarded its grant
funds, and (3) had a process to monitor its subcontracts with the delegate agency.

Scope

We performed our review based on a limited scope request from OHS; our stated objectives
reflect the areas on which OHS asked us to focus. Therefore, we did not perform an overall
assessment of YWCA’s internal control structure. We reviewed only the internal controls that
pertained directly to our objectives. Our review period was GYs 2008 and 2009 (April 1, 2007,
through March 31, 2009).

We performed our fieldwork at YWCA’s office in St. Louis, Missouri.




                                                2
Methodology

To accomplish our objectives, we:

    •    reviewed relevant Federal laws, regulations, and guidance;

    •    reviewed OHS program and policy announcements for the Head Start program;

    •    reviewed the Excluded Parties List System 2 to confirm that YWCA was eligible to
         receive Federal funds;

    •    reviewed Federal grant award documentation to determine YWCA’s Head Start grant
         funding;

    •    interviewed OHS regional staff to gain an understanding of the Head Start program and
         OHS’s role in overseeing awards to grantees;

    •    reviewed YWCA’s bylaws, Board of Director meeting minutes, and organizational chart;

    •    interviewed YWCA’s Board of Directors, management, and staff to gain an
         understanding of YWCA’s policies and procedures pertaining to its financial
         management systems;

    •    reviewed the PMS for GYs 2003 through 2010 to determine whether it had recaptured
         unobligated balances in a timely manner;

    •    reviewed YWCA’s procedures related to accounting documentation and preparation of
         financial reports;

    •    reviewed YWCA’s financial statements for FYs 2007 through 2010; 3

    •    reviewed YWCA’s cost allocation policies and procedures, as well as its monthly general
         ledger transactions and supporting documentation;

    •    reviewed YWCA’s Fiscal Policies and Procedures manual and its associated monitoring
         policies for funds allocated to its delegate agency; and


2
  This database includes information regarding entities debarred, suspended, proposed for debarment, excluded or
disqualified under the nonprocurement common rule, or otherwise declared ineligible from receiving Federal
contracts, certain subcontracts, and certain Federal assistance and benefits. The website is https://www.epls.gov/
(accessed September 19, 2012).
3
  Although our audit scope was on a GY basis, YWCA’s financial statements were on an FY basis. YWCA’s FY
ran from January 1 to December 31.



                                                         3
   •   conducted an exit conference and discussed audit findings with OHS and YWCA staff on
       February 27, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

YWCA did not always properly account for grant funds in accordance with Federal requirements
and the terms of the grant. In addition, YWCA did not always safeguard its grant funds. YWCA
had a process to monitor its subcontracts with the delegate agency.

With respect to its accounting for Head Start grant funds, YWCA:

   •   improperly used part of its GY 2009 grant award to pay for GY 2008 overspending,

   •   improperly used interfund transfers to temporarily pay for USDA and State of Missouri
       program expenditures and improperly allocated Federal Head Start grant funds to fund
       the non-Federal share of salaries at one of its Head Start centers, and

   •   applied in-kind costs that were not always allowable and were inadequately documented
       to meet its non-Federal matching share of Head Start program costs.

In addition, YWCA did not always safeguard its Head Start grant funds because it maintained
those funds in bank accounts with balances that exceeded the Federal Deposit Insurance
Corporation (FDIC)-insured limits.

As a result of these weaknesses, YWCA claimed $337,194 in unallowable expenditures,
improperly drew down funds from the PMS that created increased borrowing costs to the Federal
Government, increased the risk of loss of grant funds in the event of a bank failure, and may not
have met its required 20 percent non-Federal matching share requirement.

YWCA’s policies and procedures were not adequate to ensure that the costs it incurred were
allowable.

YWCA had a process to monitor Head Start subcontracts with the delegate agency. Specifically,
YWCA hired an independent contractor to collect data to determine whether the delegate
agency’s systems and services were implemented and working effectively. The independent
contractor provided YWCA with monitoring reports on an annual basis.




                                                4
GRANT FUNDS NOT PROPERLY SPENT

Improper Use of Current Grant Year Funds to Pay for Prior Grant Year Overspending

Federal Requirements and Policy Guidance Concerning Unobligated Balances

Federal regulations (45 CFR § 74.21(b)(2)) state that recipients’ financial management systems
shall provide for, among other things, “[r]ecords that identify adequately the source and
application of funds for HHS-sponsored activities. These records shall contain information
pertaining to Federal awards, authorizations, obligations, unobligated balances, assets, outlays,
income and interest.”

Federal regulations (45 CFR § 74.28) also state that “[w]here a funding period is specified, a
recipient may charge to the award only allowable costs resulting from obligations incurred
during the funding period….”

The 2007 HHS Grants Policy Statement (the manual), Appendix B (p. B-10), defines an
unobligated balance as “[t]he portion of funds authorized by the Federal agency that has not been
obligated by the recipient.” The manual, Appendix B (p. B-7), defines an obligation as the
“amount of orders placed, contracts and subawards, goods and services received, and similar
transactions by a recipient during a budget period that will require payment during the same or a
future budget period.” Any portion of the approved grant award that has not been obligated to
meet program objectives by the end of the GY becomes the unobligated balance for that GY.

The manual (Part II, “Requesting OPDIV Prior Approval, Exhibit 5,” p. II-50) states that unless
the recipient receives expanded authority from the OPDIV, the recipient is required to request
prior OPDIV approval before carrying over unobligated balances from one GY to the next. This
section of the manual also states that requests for carryover of unobligated balances should be
initiated once the actual unobligated balance is known. Failure to make a timely request and
obtain prior approval from the cognizant Federal agency may result in the disallowance of costs.

The manual (Part I, “Roles and Responsibilities of OPDIV Staff Members and Other HHS
Offices”) also describes the roles and responsibilities of cognizant Federal OPDIVs and
agencies, to include post-award monitoring of project/program performance. The manual (Part I,
“Roles and Responsibilities of Recipients and Their Principals”) also states that the
responsibilities of the recipient organization include accountability both for the appropriate use
of funds awarded and for the performance of the grant-supported project or activities as specified
in the approved application (p. I-6).

Grant Year 2009 Grant Funds Improperly Spent

YWCA improperly used GY 2009 grant funds to pay for overspending that occurred during the
prior GY. During GY 2008, YWCA spent more than its grant award for that year using
corporate funds. These corporate funds approximated the amount of a GY 2003 unobligated
balance that had not been deobligated by OHS and therefore remained in the PMS. In addition,
YWCA discovered that approximately $60,000 in grant funds from prior GYs remained in the

                                                5
PMS, and YWCA spent a portion of those funds. However, the PMS recaptured the GY 2003
unobligated balance before YWCA drew down the funds from the PMS. YWCA subsequently
drew down its entire GY 2009 grant award and, contrary to 45 CFR § 74.28, used part of it to
pay for overspending that occurred during GY 2008.

YWCA officials told us that YWCA spent those funds in part because its staff during the GY
2008 grant award period believed that the GY 2003 unobligated balance represented funds that
needed to be spent. YWCA officials explained that its staff that was in place before GY 2008
knew that this was not the case, but the staff lost that level of institutional knowledge and
understanding through heavy personnel turnover during GY 2008.

Along these lines, OHS officials told us that the PMS can take up to 5 years to recapture
unobligated balances. However, the GY 2003 unobligated balance was not recaptured for nearly
6 years after GY 2003 had ended. The following table shows information about YWCA’s
unobligated balances and dates of recapture from GY 2003 through GY 2009.

                         Grant Years 2003 – 2009 Unobligated Balances

                                                                  End of                   Date
         Grant              Unobligated                            Grant                   PMS
         Year                 Balancea                             Yearb                Recaptured
         2003                 $276,765c                         3/31/2004                  3/3/2010
         2004                    47,211                         3/31/2005                 3/29/2007
         2005                   280,239                         3/31/2006                 3/26/2007
         2006                   280,722                         3/31/2007                 7/13/2007
         2007                   60,429c                         3/31/2008
         2008                    10,586                         3/31/2009                   10/23/2009
         2009                         0                         3/31/2010

       a: The amounts shown as the yearly unobligated balances are not cumulative totals.

       b: The end-of-grant-year date represents the last day YWCA could obligate grant funds for each GY.

       c: YWCA stated that these unobligated balances were the basis for its overspending during GY 2008.
       YWCA overspent its GY 2008 grant award using corporate funding in an amount that approximated the
       total unobligated balances for GYs 2003 and 2007 ($337,194).

The improper spending occurred because YWCA’s policies and procedures were not sufficient to
ensure that it did not use current GY award funds to pay for expenditures incurred in a previous
grant award period. Furthermore, YWCA’s policies and procedures were insufficient to provide
adequate instructions for the accounting of the prior-year unobligated balances or to ensure that
its staff was aware that the unobligated balances were not available to spend in future periods
without prior OHS approval.




                                                      6
In addition, OHS’s policies and procedures were not sufficient to ensure that OHS reviewed the
PMS to track the unobligated balances and ensure that they were deobligated in a timely manner.
As a result, YWCA improperly spent GY 2009 grant funds totaling $337,194.

Interfund Transfers and Grant Fund Allocations

Federal Requirements and Policy Guidance Concerning Interfund Transfers and Allocation of
Federal Grant Funds

Federal regulations (45 CFR § 74.22(b)(2)) state:

       Unless inconsistent with statutory program purposes, cash advances to a recipient
       organization shall be limited to the minimum amounts needed and be timed to be
       in accordance with the actual, immediate cash requirements of the recipient
       organization in carrying out the purpose of the approved program or project. The
       timing and amount of cash advances shall be as close as is administratively
       feasible to the actual disbursements by the recipient organization for direct
       program or project costs and the proportionate share of any allowable indirect
       costs.

Federal regulations (45 CFR § 74.21(b)(3)) state that the grantee’s financial management
systems shall provide “[e]ffective control over and accountability for all funds, property and
other assets. Recipients shall adequately safeguard all such assets and assure they are used solely
for authorized purposes.”

Federal regulations (45 CFR § 74.21(b)(6)) state that grantees are required to maintain financial
management systems that contain “[w]ritten procedures for determining the reasonableness,
allocability and allowability of costs in accordance with the provisions of the applicable Federal
cost principles and the terms and conditions of the award.”

The cost principles at 2 CFR part 230, Appendix A, section A.4.a., state:

   A cost is allocable to a particular cost objective, such as a grant, contract, project,
   service or other activity, in accordance with the relative benefits received. A cost is
   allocable to a Federal award if it is treated consistently with other costs incurred for
   the same purpose in like circumstances and if it:

       (1) Is incurred specifically for the award.

       (2) Benefits both the award and other work and can be distributed in reasonable
           proportion to the benefits received, or

       (3) Is necessary to the overall operation of the organization, although a direct
           relationship to any particular cost objective cannot be shown.




                                                 7
The manual (Part I, “Post-Award Administration,” p. I-39) states: “The recipient, as the direct
and primary recipient of HHS grant funds, is responsible for managing the day-to-day operations
of grant-supported activities and is accountable to the OPDIV for the performance of the project,
program, or activity; the appropriate expenditure of grant funds by all parties; and all other
obligations of the recipient.”

OHS guidance included in an information memorandum (ACYF-IM-HS-01-06, dated March 8,
2001 4) states that if a grantee addresses cost-sharing and/or reimbursement arrangements in its
grant application, then the use of Federal Head Start grant funds to pay for other program
services costs may be allowable.

Grant Funds Used to Temporarily Fund Non-Federal Head Start Programs

YWCA used interfund transfers of Federal Head Start grant funds to temporarily fund other
programs without obtaining prior approval from OHS. Specifically, YWCA improperly used its
Head Start grant to temporarily fund USDA nutrition and State of Missouri Extended Care
programs.

For example, YWCA incurred and paid for expenditures of $85,718 for the USDA nutrition
program for the month of February 2009. YWCA submitted a claim for these expenditures to
USDA on March 5, 2009, and was reimbursed for the entire claimed amount on March 23,
2009.

In another instance, YWCA incurred and paid for expenditures of $17,251 for the State of
Missouri Extended Care program for the period of September through December 2007. YWCA
submitted a claim for these expenditures to the State of Missouri on January 3, 2008, and was
reimbursed for the entire claimed amount on January 11, 2008.

YWCA officials stated that because YWCA is sometimes not reimbursed for these expenses for
2 weeks or longer, it uses Head Start funds to supplement program expenses. For this reason,
YWCA drew down and used Head Start grant funds to temporarily fund the USDA and State of
Missouri Extended Care program expenditures until it received reimbursement from the
appropriate funding agencies for these expenditures.

Further, YWCA officials stated that, in making the interfund transfers, YWCA was following
OHS guidance included in the information memorandum (ACYF-IM-HS-01-06, dated March 8,
2001) mentioned above, which states that if a grantee addresses cost-sharing and/or
reimbursement arrangements in its grant application, then the use of Federal Head Start grant
funds to pay for other program services costs (in other words, the use of interfund transfers in the
way that we have described above) may be allowable. However, YWCA did not include any
request for interfund transfers in its grant applications to OHS. Moreover, this OHS guidance
may not conform to the requirements of 45 CFR part 74, which specifies that “[t]he timing and
amount of cash advances shall be as close as is administratively feasible to the actual


4
    ACYF-IM-HS-01-06 is currently under review by OHS.


                                                         8
disbursements by the recipient organization for direct program or project costs and the
proportionate share of any allowable indirect costs.”

These interfund transfers occurred because YWCA did not follow Federal requirements to
safeguard Federal assets and to ensure that the assets were used only for authorized purposes. In
addition, YWCA did not follow Federal regulations requiring it to draw down only those
amounts necessary in carrying out the purpose of the approved program or project. As a result of
these drawdowns of Federal Head Start grant funds, the Federal Government may have incurred
increased borrowing costs.

Improperly Allocated Costs

YWCA also made an accounting error by improperly allocating Federal grant funds to pay the
non-Federal share of salaries at one of its Head Start centers that was operating under a cost-
sharing program—an error that YWCA subsequently self-reported and corrected. Specifically,
for GY 2008 YWCA incorrectly allocated Head Start grant funds to pay for the entire salary
costs of its Educare Center. Because only half of the Educare Center’s operations were allocable
to the Head Start grant, YWCA should have charged only 50 percent of the Educare Center’s
salary costs to that grant. However, YWCA drew down Federal Head Start grant funds totaling
$157,362 to pay for the non-Federal portion of the Educare Center’s salary costs, an amount that
should have been paid from YWCA’s other funding sources.

YWCA’s policies and procedures were not sufficient to ensure that the Head Start grant was
charged its share of the salary costs associated with the Educare Center. Specifically, those
policies and procedures were not sufficiently detailed to clarify appropriate methods of drawing
down Head Start grant funds and properly allocating them to YWCA’s Head Start program. As
a result of YWCA’s improper drawdown of Head Start grant funds, the Federal Government
incurred increased borrowing costs.

After making this improper allocation, YWCA self-reported this error and, to correct it,
withdrew funds from its investment account and wrote checks to its own Head Start account.
We reviewed these transactions and determined that YWCA appropriately used these funds to
pay grant-related obligated costs during the GY 2008 liquidation period. 5 In addition, YWCA
closed the Educare Center in 2009, and we verified that YWCA’s remaining Head Start centers
enrolled only those recipients who were Head Start-subsidy eligible.




5
  Head Start policy guidance permits obligated GY funds to be expended up to 90 days after the end of the GY. This
time period is commonly referred to as the “liquidation period.” See discussion on OHS website
http://eclkc.ohs.acf.hhs.gov/hslc/tta-system/operations/Fiscal/Narrative%20Discussions/ObligationandEx.htm
(accessed October 25, 2012).



                                                        9
In-Kind Match

Federal Requirements Concerning In-Kind Match

Federal regulations require grantees to provide 20 percent of the total costs of the Head Start
program unless a waiver has been granted. This proportion of costs is referred to as the non-
Federal share, and it must come from non-Federal sources. Federal requirements make
provisions for grantees to meet some or all of the 20-percent non-Federal share through in-kind
contributions from such sources as volunteer services, personal services, office and classroom
supplies, materials, equipment, buildings, and land. To be accepted, the grantee’s non-Federal
share, including cash and third-party in-kind, shall be verifiable from the grantee’s records.

Federal regulations (45 CFR § 1301.20(a) state: “Federal financial assistance … for a Head Start
program shall not exceed 80 percent of the total costs of the program….” unless an exception
applies. Moreover, 45 CFR § 1301.20(b) states that “[t]he non-Federal share will not be required
to exceed 20 percent of the total costs of the program.”

Federal regulations (45 CFR §§ 74.23(a)(3), (4), (6) and (7)) also state that, to be accepted, all
cost-sharing or matching contributions, including cash and third-party in-kind, must be, among
other things, necessary and reasonable for proper and efficient accomplishment of project or
program objectives; be allowable under the applicable cost principles; be provided for in the
approved budget; and conform to other provisions of this regulation, as applicable.

The cost principles at 2 CFR part 230, Appendix A, section A.2.g, state that to be allowable
under a grant award, costs must be adequately documented. Also, Appendix A, section A.3.,
states: “A cost is reasonable if, in its nature or amount, it does not exceed that which would be
incurred by a prudent person under the circumstances prevailing at the time the decision was
made to incur the costs.” Further, 2 CFR part 230, Appendix B, section 14, states: “Costs of
entertainment, including amusement, diversion, and social activities and any costs directly
associated with such costs (such as tickets to shows or sports events, meals, lodging, rentals,
transportation, and gratuities) are unallowable.”

Federal regulations (45 CFR § 74.21 (b)(7)) require “[a]ccounting records, including cost
accounting records, that are supported by source documentation.”

OHS has provided additional policy guidance concerning cost-sharing and in-kind contributions
on its Web site. While this guidance does not carry the force of regulations, it is relevant not
only for its content but also because of the ease with which it is accessible to grantees. The
relevant guidance from OHS’s Web site states: “A good gauge of whether something would be
allowable as non-federal share is whether it could be justified as a federal cost charged to your




                                                 10
grant.” 6 The guidance also states: “In-kind match is counted for the period when the services
are provided or when the donated goods are received and used.” 7

Unallowable Entertainment Costs Claimed As In-Kind Match

YWCA used unallowable entertainment costs in an effort to meet its non-Federal share.
Specifically, for GYs 2007 and 2008, YWCA used the costs of donated tickets to shows
($3,250), concerts ($3,250), and sporting events ($1,630) as part of a parent/child involvement
program. As a nonprofit organization, the grantee is subject to the provisions of 2 CFR part 230,
which explicitly prohibit (Appendix B, section 14) donated tickets and other entertainment costs
for use as in-kind contributions to the grantee’s 20-percent non-Federal share. YWCA did not
provide either us or OHS with any documentation as support that these donated tickets benefitted
the children or furthered the goals of the Head Start program.

YWCA’s policies and procedures were not adequate to ensure that it did not include
entertainment costs as part of its non-Federal share or that it claimed only those donated items
whose costs would be incurred by a reasonable and prudent person under the terms of the grant
agreement.

In-Kind Match Claimed But Not Used In Same Grant Year

YWCA claimed non-Federal share for items that were donated at the end of one GY but were not
used until the subsequent GY. Specifically, YWCA received a donation valued at over $100,000
during the last week of GY 2008. YWCA claimed the entire amount of the donation to meet its
GY 2008 non-Federal share even though the donation was not distributed to YWCA’s Head Start
centers for use until several weeks into GY 2009.

Furthermore, the over-$100,000 donation claimed by YWCA for its non-Federal share included
unallowable items such as tiaras (38 cases totaling $10,096); party blowers (58 cases totaling
$7,705); party banners (16 cases totaling $5,913); gift bags (16 cases totaling $4,143); charm
bracelets (8 cases totaling $2,298); confetti (8 cases totaling $1,793); and note cards (22 cases
totaling $1,778). YWCA had no documentation that these donations benefitted the children or
furthered the goals of the Head Start program.

YWCA’s policies and procedures were not sufficient to ensure that YWCA claimed only those
donated items (a) that had been used in the GY in which they were donated and (b) whose costs
would be incurred by a reasonable and prudent person under the terms of the grant agreement.




6
 http://eclkc.ohs.acf.hhs.gov/hslc/standards/Policy%20Clarifications%20and%20FAQs/a_pc.htm#A023 (accessed
July 25, 2012).
7
 http://eclkc.ohs.acf.hhs.gov/hslc/tta-system/operations/Fiscal/Financial%20Management/Budgets/Non-
Federal%20Share.htm (accessed September 7, 2012).


                                                     11
Inadequate Documentation

For GYs 2007 through 2009, YWCA did not always maintain adequate documentation regarding
the identity and value of donated items claimed for non-Federal share requirements.
Specifically, YWCA’s donation forms did not always describe the donated item or state the
value of the donated goods. YWCA’s policies and procedures were not adequate to ensure that it
obtained and maintained supporting documentation for in-kind donations. Without maintaining
adequate supporting documentation, YWCA could not support that it had properly valued, or that
it had actually received, the in-kind donations.

As a result of improperly claiming in-kind donations and not maintaining adequate
documentation to support its in-kind match, YWCA may not have provided its 20-percent non-
Federal share of the total costs of its Head Start program for GYs 2007 through 2009 as required
by Federal regulations.

GRANT FUNDS NOT ALWAYS SAFEGUARDED

Federal Requirements Concerning Federal Deposit
Insurance Corporation Limits

Federal regulations (45 CFR § 74.22(i)(2)) state: “Advances of Federal funds shall be deposited
and maintained in insured accounts whenever possible.” In addition, Federal regulations
regarding the FDIC (12 CFR § 330) state that deposits owned by a corporation, partnership, or
unincorporated associations are insured up to the standard maximum deposit insurance amount 8
at a single bank.

In addition, the manual states:

        Federal Funds advanced to the recipient should be fully disbursed (checks written,
        signed, and issued to the payees) by the close of business the next work day after
        receipt of the funds. The potential for excessive Federal cash on hand exists each
        time the recipient does not disburse Federal funds timely. The recipient is
        responsible for determining when the Federal funds have been deposited into its
        bank account for each drawdown, ensuring that the funds are fully disbursed by
        the close of business the next work day after they are received, and immediately
        returning undisbursed cash on hand to the PMS.




8
  The standard maximum deposit insurance amount changed midway through our audit period. This amount was
$100,000 from April 1, 2007, through October 2, 2008. For the period October 3, 2008, through March 31, 2009,
the standard maximum deposit insurance amount was increased to $250,000.



                                                      12
Bank Account Balances in Excess of Federal Deposit
Insurance Corporation Limits

YWCA had instances in which its Head Start account cash balances exceeded the FDIC-insured
limits. For example, we found a period of 8 consecutive days during December 2007 in which
YWCA’s Head Start account exceeded the FDIC-insured limit of $100,000 and another period of
7 consecutive days during March 2009 in which YWCA’s Head Start account exceeded the
FDIC-insured limit of $250,000.

This weakness occurred because YWCA did not have written cash management policies and
procedures to ensure that cash balances did not exceed federally insured limits. In addition,
YWCA did not have sufficient policies and procedures to ensure that it limited its funds
drawdowns to the amounts required for it to meet its immediate cash disbursement needs.

During our fieldwork, YWCA officials stated that its Head Start account exceeded the FDIC-
insured limits because YWCA had to draw down approximately $340,000 in funds from the
PMS to pay each biweekly payroll.

However, as shown in the examples cited above, these funds could remain in YWCA’s bank
account for several days before being disbursed. Cash balances that exceed FDIC-insured limits
are subject to an increased risk of loss in the event of a bank failure.

GRANTEE MONITORING OF DELEGATE AGENCY SUBCONTRACTS

YWCA had a process to monitor its subcontracts with the delegate agency. As specified in its
Fiscal Policies and Procedures Manual, YWCA required the delegate agency to submit its
financial statements and OMB Circular A-133 reports. 9 YWCA also hired an independent
contractor to annually review delegate agency Head Start programs and issue a monitoring
report. The independent contractor collected data and reviewed the delegate agency’s financial
statements and OMB Circular A-133 reports to determine whether the delegate agency’s systems
and services were implemented and working effectively.

RECOMMENDATIONS

We recommend that when monitoring the Head Start funds, OHS consider the information
presented in this report in assessing YWCA’s ability to account for and manage Federal funds
and to operate its programs and Head Start centers in accordance with Federal regulations and
the terms of the grant. Specifically, we recommend that OHS:

     •   recover the improperly spent grant funds from the GY 2009 award totaling $337,194;



9
 OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations, sets the standards for
obtaining consistency and uniformity among Federal agencies for the audit of non-Federal entities expending
Federal awards funds.


                                                      13
    •   ensure that YWCA improves its policies and procedures for tracking unobligated
        balances so that those balances are properly accounted for;

    •   improve policies and procedures to ensure that the PMS recaptures unobligated balances
        from YWCA and other grantees in a timely manner;

    •   ensure that YWCA improves its policies and procedures so that its drawdowns of Head
        Start grant funds are timed and limited to actual program costs for the execution of
        approved program activities;

    •   review and, as necessary, modify policy guidance regarding interfund transfers to ensure
        that it conforms to Federal regulations;

    •   ensure that YWCA strengthens and, where necessary, implements policies and
        procedures to ensure that in-kind donations are allowable and are recognized in the
        appropriate accounting period, and that YWCA maintains adequate supporting
        documentation that identifies the contents and the basis for valuation of in-kind
        donations; and

    •   ensure that YWCA improves its policies and procedures so that its account cash
        balances of Head Start grant funds do not exceed the FDIC-insured limits.

YOUNG WOMEN’S CHRISTIAN ASSOCIATION
OF METROPOLITAN ST. LOUIS COMMENTS

In written comments on our draft report, YWCA provided background information for each of
our findings and described corrective actions that it had taken or planned to take. However,
YWCA questioned our finding on the use of interfund transfers to temporarily pay for USDA
program expenditures that should have been covered by USDA program grant funds. YWCA
stated that Head Start Performance Standards (45 CFR § 1304.23(b)(1)(i)) allow the cost of
nutritional services not covered by other forms of payment.

YWCA’s comments also addressed the finding in our draft report that it had underspent its GY
2009 grant award.

YWCA’s comments are included in their entirety as Appendix A.

OFFICE OF INSPECTOR GENERAL RESPONSE TO YOUNG WOMEN’S
CHRISTIAN ASSOCIATION OF METROPOLITAN ST. LOUIS COMMENTS

The Federal regulations cited by YWCA in its comments (45 CFR § 1304.23(b)(1)(i)) state that
Head Start funds may be used to cover those allowable costs not covered by USDA. However,
this regulation also states that grantees and other agencies must use USDA program funds as the
primary source of payment for meal services. YWCA did not provide support, either during our
fieldwork or in its comments, that it used Head Start grant funds for only those allowable costs
not covered by USDA program grant funds. Instead, it used Head Start grant funds to

                                               14
temporarily cover all costs. This type of interfund transfer is not permitted by 45 CFR
§ 1304.23(b)(1)(i). We therefore continue to recommend that OHS review and, as necessary,
modify policy guidance regarding interfund transfers to ensure that it conforms to Federal
regulations.

Our draft report included a finding that YWCA had underspent its GY 2009 grant award. After
receiving additional information from OHS after issuance of our draft report, we removed this
finding from, and modified the associated recommendation in, this final report.

We maintain that all of our remaining findings and recommendations are valid.

OFFICE OF HEAD START COMMENTS

In written comments on our draft report, OHS generally agreed with our findings and
recommendations. Our draft report contained a finding and associated recommendation
regarding a drawdown of unobligated balances from GYs prior to GY 2009. OHS did not agree
with this finding and provided additional information to us, including verification that the PMS
recaptured prior GY unobligated balances. OHS also stated that YWCA drew down its entire
GY 2009 grant award and improperly used part of it to improperly pay for overspending that
occurred in GY 2008.

OHS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE TO
OFFICE OF HEAD START COMMENTS

We reviewed the comments and additional information that OHS provided and discussed this
information with YWCA officials during a January 25, 2013, meeting. After discussing this
information with us, those officials agreed with OHS that YWCA had not actually drawn down
and spent the prior GY unobligated balances. YWCA also agreed that it had drawn down its
entire GY 2009 grant funds and had improperly used part of those funds to pay for overspending
that had occurred in GY 2008.

We therefore agree with OHS’s comments concerning prior GY unobligated balances and
YWCA’s drawdowns of GY 2009 grant funds. We have revised our final report to reflect the
information that OHS provided to us. We maintain that our remaining findings and
recommendations are valid.




                                               15
APPENDIXES
                                                                                                                             Page 1 of3


         APPENDIX A: GRANTEE COMMENTS




             November 19, 2012

             Mr. Patrick J. Cogley
             Regional Inspector General for Audit Services

,   .	       Department of Health and Hum an Services
             Office of Inspector General
             Office of Audit Services, Region VII
             601 East 12'h Street, Room 0429
             Kansas City, MO 64106

             Dear Mr. Cogley:

             Please find the enclosed response to the oro findings and
             recommendations dated November 13,2012.

             Thi s letter is to provide background infonnation on the status of the
             YWCA's fiscal operations during the periods referenced in the OIG's
             report, and to address the discrepancies. In October of 2008, the CFO of
             the YWCA of Metra St. Louis suddenly passed away. Please note that as a
             result, the confusion of having a CFO suddenly leave and, hence,
             temporary CFOs with no historical knowledge of the Payment
             Management System (PMS), some staff at the YWCA thought the
             balances in the PMS system were still available for spending and did not
             realize that the additional dollars being held in the PMS account were
             unobligated balances from GY 2003 and not available for use in Grant
             year 2008. Additionally, it was unusual for such unobligated funds from
             2003 to have remained in the PMS account for five subsequent grant
             years. Many areas noted in the findings were corrected many months ago.
             We are still working out some procedures on the non-federal share
             functions.

             Please note our goal is to prepare children fo r success, and we share in the
             desire to follow all Federal Regulations and laws comp letely.

             If you have any questions, please fee l free to call John Fraser, CFO, or
             myself at 31 4-53 1-1115. Our email address is jfraser@ywcastlouis.orgor
             abracy@ywcastlouis.org.




             Vtf;~~
             Adrian E. Bracy 

             Chief Executive Officer 


             Enclosure
          YWCA Metro 51. LouIs Admmlstrillive OfficE'
          3820 West Pine Blvd . • St, Louis, MO 63108 P 3 14.531.1115 • F 314.531 ,5008 ' www,ywcasUouis.org

          YW(ASt Lou~ Head Stilil.Eany He.1dStilrt                1911 Beltway Dr • 51. LO llis, MO 63 114
          YWCA. SI LOUIS flloglonill Se'llUilt Assault Center· Sdwol-Age Can'            140 N. Brentwood Blvd . • 51. Louis, MO 63105
          PhyUIl Wheatley Hertla ge CentE'r . Phyllis Whe~tley Apartments            2709-11 Locust Street · SI. Louis, MO 63103
Responses To OIG Findings and Recommendations -~Aii-O:;7'i-:':~'fi:;2~7
                                                                 -O ~~	 62;..:;;"":::::;;;,":;::,,,,,,,,,,,,,,,,,;;::,,,;:::::-;::;:::::-__--,
Review of YWCA of M etro St . Lo uis Head Start          Unid Office    of Inspect or General Note - The deleted text has been
                                                                 redacted because it is personalty identifiable Information.

TEAM' IOffice of Inspector General Note - The deleted lex!: has been
    . redacted because it is personally identifiable information.
BACKGROUND: To proilide Information regord/fIg the backg round of thefllldings dlsc/JUfId In this nport; In Octo~rof 2008, the CiO a/the YWCA of Metro St. Louis suddenly pasud CJWOY. PIe"S!! note thor as 0 rrsult, the confusion uJ hOl/ing a CFO
s uddenly lea~e, and hence te mporory CFCYs with no historical knowledge of the Payment Management System (PMS), semI! s toff 0 1 the YWCA thcught the bolonets in tilt: PMS syste m ~t'f1 stili Dvoiloble fo r s~nding and did not rtolise thot Iht
oddlllDnol dollars bdng ht/d In Ihe PM$ occount wert unobllgo led bolances from GY 03-04 and nol avo liable for ust In Gronl yeorOB.09.




#      Find ings                        Results                        Recommendations to OHS                   YWCA Background                            YWCA Response                                                     Assigned   Co m pletlo
                                                                                                                                                                                                                                        n Da te
                                                                                                                                                                                                                                        Janual)l
1      Improperly carried over and
       spen t unobliga ted balances
       from GYs prior to GY 2009.
                                        A$ a result, the YWCA
                                        claim ed $337, 194 in
                                        unallo wable expenditures.
                                                                       loll Recover I ke improperly spent
                                                                       unobligated balances from prior GYs
                                                                       totaling 5337.194.
                                                                                                                The YWCA did not have a system In
                                                                                                                place to OI l egorize the amounts In
                                                                                                                the PMS system by grant ye~r.
                                                                                                                                                           The YWCA of Metro St.louis checks the general ledger
                                                                                                                                                           tracking for each grant year allocation on an additional
                                                                                                                                                           spreadsheet. Prior ye~r grants with DH HSremaining funds are
                                                                                                                                                                                                                             ""         2012

                                                                       1b) Eruure t hat YWCA Improves its       AddItionally, it was unusual for such      Identified and tracked until such funds are drawn back by
                                                                       policies and procedures for tracking     unobligated funds from 2003 to have        OHHS through the PMS system. The separa tion of the prior
                                                                       unobligated balances so that those       relTl(llned In the PMS account for fille   year grant balances on different coklmns of the spreadsheet
                                                                       balances are properly accounted for      sub!>equent grant years.                   ensure prior year unobligated balances are not drawn, Stated
                                                                       and are not spent withou t prior                                                    another way the balal'lCes in the PMS system are analyzed
                                                                       authorilatlon from OHS.                                                             before each draw Is made to enSUle thilt prior year
                                                                                                                                                           unobligated balances are not drawn. The procedure Is
                                                                                                                                                           performed by an accountant and reviewed by tke Controller or
                                                                                                                                                           CfO.



Z	     The YWCA uncle r spent GY        Reduced services 10            Improve policies and procedures to                                                  This finding Is directly related 10 the first finding. As         CfO        January
       09/10, thus crea ting another    ch ildren by $337.196,         ensure that the PMS recaptu res                                                     mentioned In the prior finding, the general ledger Is checked                2012
       unobligated balance for                                         l.lnobllgated balances from YWCA and                                                against the additional spreadsheet. The spreadsheet Is.
       GY2009                                                          other grantees;n iI time ly manner. 	                                               updated each time a draw Is made. This new process b used to
                                                                                                                                                           monitor draw downs. The YWCA policy Is to spend the entire
                                                                                                                                                           GY funding In the appropriate GY to ensure our children are
                                                                                                                                                           getting the best edycatlon and services possible.

' -1 	 Improperly used Interfund        Improperly drew down           3·1 a) Ensure that YWCA jm p ro~es its   We agree that cost objectives should       The YWCA of Metro St.louis has an understanding now that          CfO        January
       transfers to tempora ri ly pay   fu nds from t he PMS I hat     policies and proce dures so tlla l Its   be tracked separa tely. However, we        each cost center related to Head Stan, (whether Federal or                   2012
       for USDA and State of            created Increased              drawdowns of Head Stan grant funds       would question the USDA ponion of          not,) must manage cash flow on Its own as If It were a separate
       Missouri program                 borrowing costs to the         are timed and limited to act ual         the finding $Ince the Head Stan            entity.
       eKpendltures                     Federal government. 	          program costs for the execution of       Performance standards Section              In addition, draws are now specifiCil l1y Ilmlted to those
                                                                       approved program activities.             1304.23 paragraph (b)( l )(l) allows       e~penses that can be charged to the federal grant, and drawn
                                                                       3·1 b) Review and, as necessary,         tke cost of nutritional services not       based on after the fact expenditures are Incurred. Cost plan
                                                                       modify policy guidance regarding         cove re d by other forms of pooyment.      has been updated to rellect complete separation of cost
                                                                       lnterfund t ransfe~ to en sure that It                                              objectives of DHHS, Extended day funded by poorent co-pay and
                                                                       conforms to Federal re&!ulations.                                                   State subsidies, and USDA.




                                                                                                                                                                                                                                                       .."

                                                                                                                                                                                                                                                       ~
                                                                                                                                                                                                                                                       N
                                                                                                                                                                                                                                                       o
                                                                                                                                                                                                                                                       "" 

                                                                                                                                                                                                                                                       w
Responses To OIG Find ings and Recommendations - A-07-11-02762
Review of YWCA of Metro St. louis Head St art un i t:l~ice of Inspector General Note - The deleted text has been
                                                     redacted because it is personally Identifiable in formation.                                                                                       I
•
,.,
         Findings                                  Results                                Recommendations to OHS                              YWCA Background                                                   YWCA Response
                                                                                                                                                                                                                The cost centers 01 t he Head Start program are tracked using
                                                                                                                                                                                                                                                                                                                Ass igned                   Co mple Uo
                                                                                                                                                                                                                                                                                                                                            n Date
                                                                                                                                                                                                                                                                                                                                            January
         Improper!y allocated Federal              Imp roper!y d rew down                3-2 a) Ensure that YWCA Improves Its                                                                                                                                                                                   CFO
         Head Start grant funds to                 funds from the PMS that               policies and procedures $0 that lIS                                                                                    cemln *program codes.* Only the codes assigned to the                                                                       2012
         lund the non-Federa l share of            created Incrused                      drawdowns of Head Start grant funds                                                                                    federal portion of the program are used to draw down federal
         salaries at one If Its Head Start         borrowing cosU to the                 are timed and limited to actual                                                                                        funds. Therefore, thIs error would not occur In the fut ure .
         centers                                   Federa l government.                  program costs for the execution of
                                                                                         approved program activities.
                                                                                         3-2 b) Review and, u necessary,
                                                                                         modify policy guidance regarding
                                                                                         Interfund transfers to ensure thlt It
                                                                                         conforms to ~r.1 reaulatlons

•        Applied In-kind costs that
         were not always allowable
                                                   MIV not ha ...e met Its
                                                   requIred 20 percent of the
                                                                                         Ensure that YWCA Slrengthert$ and,
                                                                                         where necessary, Implemenu polkles
                                                                                                                                              The YWCA I"Ias added this subject
                                                                                                                                              "",ner to its trainIng protocol.
                                                                                                                                                                                                                All staff Involved In the non-federal shire trackl", prOCeiS has
                                                                                                                                                                                                                recel\ted tfllnlng on the non-federal share topic. The YWCA
                                                                                                                                                                                                                                                                                                                Non-
                                                                                                                                                                                                                                                                                                                federa l
                                                                                                                                                                                                                                                                                                                                           January 1,
                                                                                                                                                                                                                                                                                                                                           2013. With
                                                                                                                                              several staff has attended tr~lnlng
         and were Inadequately                     total costs of the /"IOn­             and procedures to enwre that In-kInd                                                                                   w1ll rev!!!w and update written polltles.nd procedures to
                                                                                                                                                                                                                                                                                                                "'.~                       annual
         documented to meet Its /"IOn-             It'denl matching share                donations are allowable and are                      and has traIning scheduled. In                                    ensure that allocability, reasonableness and allowablenes~ of                                   admini~trat                updates.
         Federal matching share of                 requIrement.                          recolnlled In the .ppropriate                        addition, procedures are being                                    all cost sharing requirements, con principles, prior approval
         Head SUlrt procram costs.                                                       iKcounting period, and that YWCA                     modif~ to ensure the in-Idnd Is                                   requlremenu and other rules for allow ability. In addition,                                     "
                                                                                         maIntains adequate supporting                        allowable and In the proper period                                procedures afe In plate to ensure adequate supportIng
                                                                                         documentation that ldentlfles t he                   before being entered In the tracking                              documentation Is Idenl1f1ed with the contents and the basis fOl'"                           I

                                                                                         contenu and the basis for ...aluatlon o f            database.                                                         valuation olin-kind donatiort$. We have added a Non-Federal
                                                                                         In . lliAd donatlonl..                                                                                                 Share Administrator posltlon to manase this process.


5        In additIon, YWCA dId not                 Increased risk of loss of              Ensure that YWCA Improves Its                       Certain account payable runs will                                 The YWCA now has Its accoun ts backed by II Treasury backed                                     CfO                        September
         always safegua rd lU Head                 granttunds In the eve"t of             policies and procedures $0 ttla t lts               eMceed $250,000. So the amount of                                 sweep account $0 that even on those days of large check runs                                                               2012
         Start srant funds because 1\              a bank failure.                        account cash balances of Head Start                 federal dollars e~ceedlns t he FDIC                               or payroll, all funds are Insured. Funds are oo!y drawn after the
         maintained those funds In                                                        grant funds do not exceed the FDIC-                 limit wovld be t he amount of                                     e~penditure has occurred. Therefore, thece is ~ very short
         bank accounts with balances                                                      insured limits.                                     ouUtandlng checks. In addition, 1 to                              amouot of time the funds afe In the account .
         that e~ceeded t he Federal                                                                                                           2 days after a payroll run, there may                                                                                                                                                    I
         Peposit Insurance                                                                                                                    be amounts In the account over the
         Corporation (FD IC)-lnsured                                                                                                          $250,000.
         IImIU.




App roval by Au t horized Representative:
 have reviewed ., ................ .. .. ..... .. . _~ .... _.. . ~_~ . . hereb
                                                                          ... _.. __ " a prove It as t h
                                                                                                       . .. _ ......_ . .... _ . -_.... --- ...... 0 ...h.. _           d
                                                                                                                                                                .. .... _ .... ..   , .. .. _ __ ...... ...... _ .... d
                                                                                                                                                                                    ./1                                  ..u .. "
                                                                                                                                                                                                                      _,...         'dentified
                                                                                                                                                                                                                                    I          in t he DIG '.... .. ·                                   heC
                                                                                                                                                                                                                                                                        - - ...0 - ... _ .. .... _ . . . .. .. _ _ _   ~_
                                                                                                                                                                                                                                                                                                                            Numb
                                                                                                                                                                                                                                                                                                                            .. - _ . .. . _ .::1 ..

S1&nature: Authorized Represenlftlve                                                             Date:                                                               OH HS Review:                                                                                            Date:




                                                                                                                                                                                                                                                                                                                                                         .,'1:i
                                                                                                                                                                                                                                                                                                                                                         ~
                                                                                                                                                                                                                                                                                                                                                         W
                                                                                                                                                                                                                                                                                                                                                         o
                                                                                                                                                                                                                                                                                                                                                         H;
                                                                                                                                                                                                                                                                                                                                                         w
                                                                                                     Page 1 of 4


       APPENDIX B: OFFICE OF HEAD START COMMENTS 





            CHIIirREN &<FAMILIES
            Region VII   601 East 12'" Street, Room 349, Kansas City, MO 64 106   WINW.acf.hhs.gov




Mr. Patrick J. Cogley
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of inspector General
Office of Audit Services, Region VII
601 East Ith Street, Room 0429
Kansas City, M 0 64106

Dear Mr. Cogley:

Please find the enclosed response to the OIG draft report (Not All of the Young Women's
Christian Association of Metropolitan St. Louis Head Start Expenditures Were Allowable
(A-07-1l -02762)) findings and recommendations dated December II, 201 2.

If you have any questions, please feel free to contact m e at 816-426-2290 or
clarence.small@acf hhs.gov.




Clarence Small
Regional Program Manager, Office of Head Start, Region VII

Enclosure
                                                                                                 Page 2 of4




                      Office of Head Start, Region VII, comments to 

   "Not All of the Young Women's Christian Association of Metropolitan St. Louis Head 

                           Start Expenditures Were Allowable" 

                                     (A-07-11-02762) 


Objectives, Scope, and Methodology (Draft Report, page 2) 

The Scope references a review period for GY s 2008 and 2009. These grant years covered the 

period April 1, 2008 through March 31,2010, rather than April 1, 2007 through March 31,2009 

as listed in the report. 


Finding 1: Unobligated Balances (Draft Report, page 5) 

We do not concur with the finding that the YWCA improperly carried over and spent 

unobligated balances from GYs prior to GY 2009. The grantee submitted a final SF-269 report 

for GY 2003 with an unobligated balance of $276,765. The Payment Management System 

(PMS) recaptured the GY 2003 unobligated balance from the grantee's account in October 2009. 

Planned action: We will review the YWCA's policies and procedures for tracking unobligated 

balances and we will work with the PMS to ensure unobligated balances are recaptured in a 

timely manner. 


Finding 2: Funds from Grant Year 2009 Award Underspent (Draft Report, page 7) 

We do not concur with the finding that the YWCA did not spend all of its authorized GY 2009 

funds, thus creating another unobligated balance. During a risk management meeting with the 

grantee in January 2011, the grantee explained they had exceeded their GY 2008 budget by 

approximately $494,000. The grantee used non-federal funds to cover $157,000 of the expenses 

and drew down approximately $337,000 from GY 2009 funds to cover the balance of the GY 

2008 overage. The grantee submitted a final GY 2009 SF-269 report on June 30, 2010 reporting 

an unobligated balance of $0. A revised final SF-269 report for GY 2009 was submitted 

November 29,2010, along with a memo explaining that the YWCA had posted ajournal entry 

prior to filing the original SF-269 in an effort to correct and true up the general ledger. The 

YWCA was subsequently informed by a consulting firm that prior period adjustments would be 

considered disallowed expenses for GY 2009, so they reversed the journal entry and amended 

their final SF-269 report for GY 2009 to reflect an unobligated balance of $337, 196. The figures 

reported on the revised SF-269 report conflict with the information reported by the YWCA to the 

PMS for GY 2009. The Document Summary ofAuth, Disb & Charged-Adv Amounts report 

(included at the end of these comments) indicates that the YWCA was authorized to receive 

$21,619,299 in GY 2009. In the YWCA's 6/30/10 quarterly disbursement report to the PMS, the 

YWCA reported advances of $21,619,299 and disbursements of $21,619,299. These figures do 

not coincide with the YWCA's revised final SF-269 report for GY 2009. Planned action: Upon 

receipt of the OIG report, we will proceed to recover the GY 2009 funds spent outside the period 

of availability. We will review the YWCA's policies and procedures to ensure the drawdown of 

Head Start grant funds are timed and limited to actual program costs for the execution of 

approved program activities. 


Finding 3: Interfund Transfers and Grant Fund Allocations (Draft Report, page 7) 

We concur with the finding that the YWCA improperly used interfund transfers to temporarily 

pay for State of Missouri program expenditures and improperly allocated Federal Head Start 

                                                                                                      Page 3 of 4




grant funds to fund the non-Federal share of salaries at one of its Head Start centers. We also 

concur that the YWCA corrected the allocation error related to the Educare Center and used non­

federal funds to pay grant-related obligated costs during the liquidation period. Planned action: 

Upon receipt of the OIG report, the Regional Office will work with the Office of Head Start to 

review its policy guidance on interfund transfers. 


Finding 4: In-Kind Match (Draft Report, page 10) 

We concur with the finding that the YWCA applied in-kind costs that were not always allowable 

and were inadequately documented to meet its non-Federal matching share of Head Start 

program costs. Planned action: We will review the YWCA's policies and procedures to ensure 

in-kind donations are allowable and are recognized in the appropriate period, and that YWCA 

maintains adequate supporting documentation that identifies the contents and the basis for 

valuation of in-kind donations. 


Grant Funds Not Always Safeguarded (Draft Report, page 12) 

ACF concurs with the finding that the YWCA did not always safeguard its Head Start grant 

funds because it maintained those funds in bank accounts with balances that exceeded the 

Federal Deposit Insurance Corporation (FDIC)-insured limits. Planned action: ACF will review 

the YWCA's policies and procedures to ensure its account cash balances of Head Start grant 

funds do not exceed the FDIC-insured limits. 


Recommendations (Draft Report, pages 13-14) 

ACF concurs with the recommendations provided to the Office of Head Start in the Draft Report; 

however, we would clarify the funds to be recovered are related to charges to the award outside 

of the allowable funding period, per 45 CFR 74.28. 

                                                                                                                                          Page 4 of 4




:INQUl:RY : Document Sunmary oj! Auth , Oisb ,           Charqed-Adv Amounts        DATE : 0 1 /07/2013   TIME : 10 : 29 : 49 AM


             ACC : 3Ml6G

"ACCT* * * PIN * ' ~* *EIN ****' ·***· DUtlS · · · ..... ··**.. ··*Ocganizat i on Name "· ' · "";'-*
3M16G      3M16  1430653618111 0771 14 049                'tOUNG WOMEN'S CHRIS1'lAN ASSN Of METRO ST LOUIS
HHS - REG : 07 S1ATE : MO PH'!' : IICH STOp : N MAN - REV : N 272 : fi Ie GROUP : Fll USER : VNK8BP
                                     ~ ~. ~ • AUTHORIZED-' ...     "' ~'DISBURSED*'"         ·····*CHG-ADV~··*·        +RPT DISB+ RS DS
G      O?CH042303                               2 , 691 , 031 . 00       2 , 691 , 031 . 00        2 , 691 , 031.0012/31/1994 C C
G      07CH0423Q4                               4 , 239, 762 . 00        4 , 239 , 762 . 00        4 , 239 , 762 . 0006/30/ 1 995 C C
G      Q7CH042305                               3 , 965 , 241 . 00       3 , 965 , 241 . 00        3 , 965 , 2 41. 0006/30/ 1 996 C C
G      Q?CH042306                               4 , 277 . 858 . 00       4 , 271 , 85 8 . 00       4 , 277 , 858 . 0006/30/1997 C C
G      O?CH04 2301                              4 , 700, 9 15 . 00       4 , 700 , 915 . 00        4 , 700 , 9 15 . 0006/30/ 1 998 c C
G      Q7CH04230a                               5 , 500, 131.00          5 , 500 , 13100           5 , 500 , 1310006/30/2000 C C
G     Q?CH0423D9                                5 , 946, 937 . 00      5,   946 , 937 . 00      5 , 946 , 937 . 0009/30/2000       C C
G     Q7CH04 2310                               6 , 304 , 380 . 00     6,   304 , 380 . 00       6 , 30 4 , 3800009/30/2001        C C
G     Q7CH042311                              15 , 249, 5 40 . 00     15 ,  249 , 540 . 00     15 , 249 , 540 00 06/30/2002        C C
G     Q7CH042312                              1 7 , 155 , 301 . 00    17,   155 , 301.00       1 7 , 155 , 301 DO 06/30/2003       C C
G     Q7CHD42313                              21 , 584 , 229 . 00     21 ,  584 , 229 . 00     21 , 564 , 229 DO 09/30/2004        C C
G     01CH0 42314                             20 , 84 9, 692 . 00     20 ,  849 , 692 . 00     20 , 849 , 692 00 09/30/2005        C C
G     Q7CHQ4 2315                             20 , 544 , 7 06 . 00    20 ,  5 44 , 706.00      20 , 544 , 706 . 0009/30/2006       C C
G     07CH042316                              20 , 502, 950 . 00      20 ,  502 , 950 . 00     20 , 502 , 950 . 0009/30/2011       10
G     07CH D423 1 ?                           20 , 870, 007.00        20 ,  870 , 007 . 00     20 , 870 , 007 . 0009/30/2006       C C
G     Q7CH042318                              20 , 886 , 266 . 00     20 ,  860 , 604 . 00     20 . 860 , 739 . 3709130/2009       I ?
G     01CH042319                              21.619 , 299 . 00       21 ,  619 , 299.00       21 , 619 , 299 . 00 06/30/2010      C C
G     Q?CH042320                              2 1. 826 , 713 . 00     21 ,  786 , 295 . 00     21. 766 , 430 . 37 09/30/2011       I 0
G     07CH042321                              21 , 922, 583 . 00      21 ,  911 , 283 . 00     21 , 911 , 418 . 3709/30/2012       1 0
G     07CH0 42322                             22 , 078 , 974 . 00      9,   244 , 972 . 02     15 , 632 , 143 . 2709/30/20 1 2     A 0
G     O?YC051202                                    95 7 , 149 . 00         957 , 149 . 00           957 , 149 . 0009/30/2006      C C
G     O'7YC051203                               1 , 245 , 861.00        1 , 245 , 861.00         1, 245 , 861 . 0003/31/2002       C C
G     07YCQ51204                                ) , 955 , 323 . 00      1, 955 , 323 . 00        1 , 955 , 323 . 0003131/2003      C C
G     0 7YC0 51205                              1 , 675 , 391 . 00      1 , 675 , 3 91 . 00      1 , 675 , 391 . 0003/31/2004      C C
